WAIVER

Supreme Court, U.S.
FILED

SEP 0 4 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-212

Hanh Thai Williams

v.

Succession of Fred Langford Houston
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
[] Please enter my appearance as Counsel of Record for all respondents.

D There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Ba.
Signature

Septem r 3, 2

Date:

(Type or print) Name

Marjorie L. Frazier
D Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Wiener, Weiss, & Madison, APC

Address

330 Marshall Street, Suite 1000

City & state
Phone

Shreveport, Louisiana

(318) 213-9205

Zip
Email

71101

mfrazier@wwmlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Hanh Thai Williams

RECEIVED
SEP - 9 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

WIENER, WEISS & MADISON

SETH M. MOYERS
Direct: (318) 213-9278
smoyers@wwmlaw.com

A Professional Corporation

September 4, 2019

By Federal Express: 776149123847
Supreme Court of the United States
Attn: Clerk of the Court
1 First Street, N.E.
Washington, DC 20543
Re:

Hanh Thai Willit2ms v. Succession of Fred Langford Houston, No. 19-212,
U.S. 2019

Dear Clerk of the Court:
Please find enclosed the Waiver on behalf of Armand L. Roos, as the dative,
independent executor of the Succession of Fred Langford Houston, No. 525,127 (1St
Judicial District Court, Caddo Parish, Louisiana) to be filed in the above-referenced case.

Sincer

UTS,

Seth M. Moyer
For the Firm
SMM/epk
Enclosure

RECEIVED
SEP - 9 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

I

330 Marshall Street, Suite 1000 • Shreveport, Louisiana 71101 P.O. Box 21990 • Shreveport, Louisiana 71120
Telephone: (318) 226-91001 Facsimile: (318) 424-5128

